<html>
<title> - BORDER STATION CONSTRUCTION: MINIMIZING COSTS AND LEVERAGING PRIVATE DOLLARS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










 BORDER STATION CONSTRUCTION: MINIMIZING COSTS AND LEVERAGING PRIVATE 
                                DOLLARS

=======================================================================

                                (114-42)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-216 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois
                                ------                                

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
ERIC A. ``RICK'' CRAWFORD, Arkansas  ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MARK MEADOWS, North Carolina             Columbia
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RYAN A. COSTELLO, Pennsylvania       DONNA F. EDWARDS, Maryland
BARBARA COMSTOCK, Virginia           DINA TITUS, Nevada
CARLOS CURBELO, Florida              PETER A. DeFAZIO, Oregon (Ex 
DAVID ROUZER, North Carolina             Officio)
BILL SHUSTER, Pennsylvania (Ex       VACANCY
    Officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Michael Gelber, Deputy Commissioner, Public Buildings Service, 
  U.S. General Services Administration...........................     3
Eugene Schied, Assistant Commissioner, Office of Administration, 
  U.S. Customs and Border Protection, U.S. Department of Homeland 
  Security.......................................................     3

                                Panel 2

Gary Gallegos, Executive Director, San Diego Association of 
  Governments, and Board Member, Coalition for America's Gateways 
  and Trade Corridors............................................    10
Sam F. Vale, Chair, Public Policy Committee, Border Trade 
  Alliance.......................................................    10

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Michael Gelber...................................................    19
Eugene Schied....................................................    23
Gary Gallegos....................................................    28
Sam F. Vale......................................................    35

                       SUBMISSIONS FOR THE RECORD

Gary Gallegos, Executive Director, San Diego Association of 
  Governments, and Board Member, Coalition for America's Gateways 
  and Trade Corridors, supplementary information for the record..    41


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 BORDER STATION CONSTRUCTION: MINIMIZING COSTS AND LEVERAGING PRIVATE 
                                DOLLARS

                              ----------                              


                        WEDNESDAY, MAY 18, 2016

                  House of Representatives,
              Subcommittee on Economic Development,
        Public Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room 2253, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The committee will come to order. Good 
morning.
    Border security is a fundamental responsibility of the 
Federal Government because we must protect both our national 
security and the American worker. This makes border stations 
critical to our Nation's security and our economy.The purpose 
of today's hearing is to review major capital projects at our 
Nation's border stations and examine how we can use non-Federal 
and private dollars that are sitting on the sidelines to 
jumpstart projects to help meet these infrastructure needs.
    It is important that the men and women who guard our border 
have the resources that they need to better enforce our 
existing immigration and trade laws.
    There are 167 land ports of entry, also known as border 
stations, that, according to GSA, see roughly $2 billion in 
trade crossings; 350,000 vehicles; 135,000 pedestrians, and 
30,000 trucks daily. These land ports of entry are important to 
our national security, as they serve as a line of defense 
against those who would enter this country illegally and with 
the intent of attacking our homeland.
    However, the cost of maintaining and modernizing our land 
ports of entry is not cheap. Projects recently completed or 
underway in recent years have totaled $1.5 billion. And these 
costs don't include equipping and staffing these border 
stations. That is why I worked to help craft language enacted 
in the fiscal year 2014 appropriations bill to establish a 
pilot program for public-private partnerships.
    This pilot program allows for non-Federal donations of real 
property and equipment at owned border stations to help reduce 
costs to the taxpayer. More recently, language further refining 
this program was included as part of H.R. 3586, the Border and 
Maritime Coordination Improvement Act.
    The intent of this pilot program is not to replace the 
Federal responsibility of constructing and maintaining these 
critical facilities. To be clear, making sure that we have the 
infrastructure and tools in place to enforce immigration and 
trade laws is a Federal responsibility. Rather, the intent is 
to provide additional tools to GSA and CBP to work with State, 
local, and private sector partners to help temporarily address 
the funding gaps.
    Potential donations under the pilot should not be used to 
replace our Federal responsibility or to circumvent our process 
of appropriately identifying priorities and needs. Donations, 
whether they be of real property or equipment, are not free. 
Generally, acquisition costs are only a portion of the total 
cost of an asset.
    Each project considered under the pilot program should be 
limited in scope and be carefully reviewed to ensure it fits 
with our national priorities and that the costs associated with 
ongoing maintenance and upkeep are assessed to protect the 
taxpayer from picking up an unexpected bill down the road.
    While CBP owns 42 percent of the owned stations, GSA owns 
and manages all of the largest and most heavily used border 
stations. The size and complexity of these facilities vary 
widely and include facilities with traffic as little as two 
vehicles a day and 3,000-square-foot buildings, to large 
complexes that see thousands of vehicles and house a multitude 
of Federal agencies, including CBP, ICE, Agriculture, CDC, and 
the FDA.
    Unfortunately, many of these border stations have not kept 
up with new technologies, threats, and traffic. We must ensure 
that we can effectively screen people and goods to protect our 
Nation's security and commerce, but at the same time facilitate 
the movement of legitimate traffic and goods. This is a tough 
balance, and the facilities and related infrastructure managed 
by GSA and CBP are critical to this mission.
    Without proper facilities, new technologies like biometric 
entry and exit systems that better screen people and vehicles 
cannot be effectively deployed. Without space for all the key 
agencies to operate, commerce may be slowed, hurting American 
businesses and killing job opportunities.
    Today, I am pleased to have GSA and CBP, as well as private 
and local representatives here with us today. We want to know 
the status of projects that we have authorized, what are the 
future needs and priorities, and how public-private 
partnerships could be effectively used to help temporarily fill 
any gaps. I hope we can get answers to these and other 
questions today. I look forward to hearing from our witnesses 
today, and I want to thank you.
    And I now call on the ranking member of the subcommittee, 
Mr. Carson, for his opening statement.
    Mr. Carson. Thank you, Chairman Barletta. Good morning, 
everyone.
    The GSA serves an important role as the property and 
construction manager for the Federal Government. Today(s 
hearing rightly chooses to focus on how GSA can continue to 
effectively manage the land ports of entry construction 
program.
    GSA owns and manages all of the largest land ports of entry 
along the southern border. Daily nearly $2 billion in trade 
crosses through the border crossings, along with 355,000 
vehicles; the 135,000 pedestrians; and 30,000 trucks. Today we 
hope to learn how GSA is improving the infrastructure at land 
ports of entry, and how they can facilitate more efficient and 
secure crossings between the United States and its trading 
partners along the southern and northern borders.
    I would like to thank Deputy Commissioner Michael Gelber of 
GSA for joining us today to outline the agency's role in 
maintaining and constructing land ports of entry. The 
Department of Homeland Security often has the largest Federal 
agency presence at land ports of entry and border stations, so 
I am pleased that they will be joining us, as well.
    I am also pleased that we have two organizations 
representing private sector organizations for coming in today 
and giving us their perspective on working with GSA and DHS. I 
also look forward to hearing their insights on how DHS is 
implementing the pilot public-private donation program that is 
meant to speed the development of land ports of entry. Thank 
you for coming.
    I yield back, Mr. Chairman.
    Mr. Barletta. Thank you. On our first panel today we have 
Mr. Michael Gelber, Deputy Commissioner, Public Buildings 
Service of General Services Administration; and Mr. Eugene 
Schied, Assistant Commissioner, Office of Administration, 
United States Customs and Border Protection.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Barletta. Without objection, so ordered.
    Each of you is now recognized for 5 minutes. Mr. Gelber, 
you may proceed.

   TESTIMONY OF MICHAEL GELBER, DEPUTY COMMISSIONER, PUBLIC 
 BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION; AND 
       EUGENE SCHIED, ASSISTANT COMMISSIONER, OFFICE OF 
   ADMINISTRATION, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Gelber. Good morning, Chairman Barletta, Ranking Member 
Carson. My name is Michael Gelber, and I am the Deputy 
Commissioner of the U.S. General Services Administration's 
Public Building Service. Thank you for inviting me to this 
hearing on land ports of entry construction.
    GSA's mission is to deliver the best value in real estate, 
acquisition, and technology services to the Government and the 
American people. As part of this mission, GSA maintains a close 
partnership with the Department of Homeland Security Customs 
and Border Protection to meet that agency's space needs along 
our Nation's borders.
    CBP is our primary partner among the Federal inspection 
agencies stationed along America's land borders. GSA works 
closely with CBP to design, construct, maintain, and operate 
land ports of entry along more than 1,900 miles of border 
between the United States and Mexico, and more than 5,500 miles 
of border between the United States and Canada. Of the 167 land 
ports of entry along America's borders, GSA manages 124, of 
which the Government owns or partially owns 102. GSA's land 
ports of entry encompass more than 5.5 million square feet of 
space.
    CBP operates 40 primarily smaller ports, mostly in remote 
areas. These land ports of entry encompass approximately 
477,000 square feet of space. Minimizing costs to deliver these 
critical land ports of entry begins with effective targeting of 
resources at the highest priority projects. GSA looks to CBP to 
develop its priority list first. Then GSA, while still working 
closely with CBP, integrates these CBP priorities into GSA's 
larger, multiyear capital investment plan.
    Over the past 16 years, GSA has invested more than $1.8 
billion from the Federal buildings fund to deliver more than 20 
new land ports along our northern and southern borders. Since 
2013 GSA has requested over $1 billion in support of land port 
modernization, including GSA's fiscal year 2017 request of $248 
million to reconfigure and expand the land port of entry in 
Calexico, California, and $5.7 million for design and 
construction of a new animal inspection facility in Pembina, 
North Dakota.
    Of these requests, Congress has provided approximately $700 
million through fiscal year 2016. Successful execution of these 
land port of entry projects improves trade and commerce, 
creates jobs, and bolsters our Nation's security. GSA's ability 
to fund land ports of entry has historically been supported by 
appropriations provided by Congress. Without the full funding 
requested in the President's annual budget, GSA cannot execute 
the land port upgrades that are critically needed.
    In recent years GSA has seen greater interest in finding 
alternatives to Federal appropriations to support the delivery 
of high-priority land port projects, including by accepting 
donations through GSA and CBP existing authorities.
    When assessing the viability of any project, whether it is 
funded through the traditional appropriations process or 
alternative means, GSA and CBP look at the full life cycle cost 
of a port. This analysis includes the funding amount and source 
of that funding to operate and maintain the facility.
    If an alternative funding source might be available to 
construct a land port of entry, GSA and CBP still may need to 
obtain funding to address the other costs associated with the 
project. Thus, acceptance of what appears to be a cost-free 
donation could ultimately result in additional costs to the 
Government. At the same time, if the investment is required to 
address critical commerce and security requirements at the 
border, a donation would result in lower cost to the Government 
than if the Government had to make the full investment itself.
    When evaluating donations, GSA and CBP will continue to 
weigh these various cost implications, relative to the 
opportunity to impact on CBP operations, border security, trade 
and travel, and local and regional economic benefits.
    GSA has a longstanding authority to accept unconditional 
gifts of real and personal property from other public or 
private entities. GSA has used its authority on occasions when 
State or local governments and, in a few cases, private-sector 
entities have elected to donate land or other real property to 
GSA. Congress has supported efforts to find land port of entry 
funding alternatives by providing CBP additional statutory 
authority to receive donations and reimbursement from State, 
local, and private entities.
    Congress expanded CBP and GSA's donation authorities 
through section 559 of the Consolidated Appropriations Act of 
2014. As required by section 559 donation acceptance authority, 
GSA and CBP work collaboratively to establish robust evaluation 
criteria, incorporating feedback from a broad range of 
stakeholders.
    Thank you for the opportunity to speak with you today about 
GSA's ongoing partnership with CBP to cost-effectively improve 
the Nation's infrastructure along America's borders.
    I welcome the opportunity to discuss GSA's commitment to 
strategic investment in the Nation's land ports of entry, and 
am happy to answer any questions you may have.
    Thank you.
    Mr. Barletta. Thank you for your testimony.
    Mr. Schied, you may proceed.
    Mr. Schied. Good morning, Chairman Barletta, Ranking Member 
Carson. Thank you for the opportunity to appear before you 
today to discuss CBP's role and efforts to provide modern, 
efficient, and effective land ports of entry facilities in 
support of our mission to secure and facilitate trade and 
travel into the United States.
    Alongside the General Services Administration, CBP 
facilities management and engineering directorate oversees the 
repair and modernization of CBP's inspectional facilities at 
our 167 land border crossings along the U.S. border with Canada 
and Mexico.
    Most of the land ports of entry were built prior to the 
creation of the Department of Homeland Security and CBP. When 
they were designed and built to support the distinct and 
independent operation of pre-DHS agencies such as the U.S. 
Customs Service, Animal and Plant Health Inspection Service, 
and the Immigration and Naturalization Service.
    Today, CBP consolidated operations incorporate state-of-
the-art technology and professional law enforcement personnel 
to maintain the efficient and secure flow of cross-border trade 
and travel. Operational success depends on the condition and 
utility of our inspectional facilities. As distinct from the 
conventional office environment, these facilities are unique 
and critical to CBP's mission success.
    Today I would like to discuss CBP's role in addressing 
infrastructure demand and modernized inspection facilities to 
meet the challenge of growing volumes of trade and travel.
    Many of the Nation's land port of entries were built more 
than 70 years ago. Even those constructed as recently as 15 
years ago require renovation or replacement to meet present-day 
security standards, enforcement and facilities technologies, 
and the growing demand for additional processing capacity.
    Trade between the United States and Mexico has expanded 
nearly sixfold, from $100 billion in 1993 to $531 billion last 
year, with similar increases in trade with Canada. During the 
same period, capital investment in the land port of entry 
facilities that process this trade and travel have averaged 
less than $90 million a year. This historic insufficiency in 
investment has led to a compounding current investment need 
estimated to be about $5 billion.
    A study performed by the University of California Center 
for Risk and Economic Analysis of Terrorism Events, or CREATE, 
showed that an investment in constructing and staffing a single 
new vehicle processing lane at a port can translate to as much 
as $25 million in positive economic value.
    CBP uses a multistep process to prioritize land port of 
entry modernization investments. In coordination with key State 
and Federal and local stakeholders, we assess individual needs 
at each facility. This assessment process is the underpinning 
of our prioritization process. It is metrics driven, its 
purpose is to identify candidate locations most in need of 
improvement.
    In addition to this assessment, numerous other factors come 
into play. These include factors such as environmental, 
cultural, and historic preservation, land acquisition 
requirements, the impact on other projects in the same 
geographic area, and other project risks, including the 
likelihood of obtaining funds. After our assessment, we 
collaborate with GSA's Public Building Service to jointly 
develop a prioritized capital investment plan, and we update it 
annually to ensure that the available Federal funding is 
directed to the areas of greatest need.
    CBP actively participates in regional border planning 
efforts and works in close coordination with regional 
transportation groups. We look carefully at each port's 
activity and its regional context, and we work with State and 
local stakeholders to determine where and what kind of 
inspection facilities are needed, both now and in the future.
    In addition to traditional funding streams, thanks to the 
support of Congress, CBP has recently received the authority to 
enter into partnerships with the private sector and local 
government entities to accept donations of real and personal 
property. This authority provides CBP and GSA the opportunity 
to consider donations and proposals to address local port of 
entry infrastructure needs that might not otherwise be 
addressed. These donations are expected to reduce border wait 
times, support increased flow and volume of traffic, create 
jobs, and address critical needs.
    Last year CBP and GSA selected three proposals for further 
planning and development. This spring we expect to announce 
additional selections, and we look forward to continuing to 
work with our partners for the shared goal.
    In closing, thank you again, Chairman Barletta and Ranking 
Member Carson, for the opportunity to testify. And thank you 
for the interest and support of port of entry projects. And I 
am happy to answer your questions.
    Mr. Barletta. Thank you for your testimony. I will now 
begin the first round of questions limited to 5 minutes for 
each Member. If there are any additional questions following 
the first round, we will have additional rounds of questions, 
as needed.
    Mr. Gelber, we have authorized projects valued at nearly 
$1.5 billion in recent years, with some of those projects being 
for--that's 30 years before. On some of the major projects, 
Calexico, San Ysidro, and Alexandria Bay, can you give us a 
summary of where you are with those projects and will 
additional authorizations be required?
    Mr. Gelber. Yes, sir. San Ysidro was a three-phase project, 
and funding has been provided for all three phases. The first 
phase is nearing completion, if not--significant portions of 
that phase have been completed. In an oddity of that particular 
project, phase 3 then became the second phase, as we were 
coordinating that project with the Mexican Government, and then 
we have also received funding for phase 2. So all three phases 
have been funded, and they are in various stages of 
development.
    Calexico is a primary--primarily--excuse me--on San Ysidro, 
the notable thing about that facility, it is the busiest land 
port of entry in the world. Calexico is primarily a facility 
for the transmission of agricultural projects between the 
United States and Mexico. The funding for those two projects--
phase 1 has been provided in the President's budget. The 
request for fiscal year 2017 is to provide funding for phase 2. 
Alexandria Bay funding has been provided in fiscal year 2016 
for the first phase of that project, and the expectation is in 
fiscal year 2018 the remaining second phase funding request 
will come in for that work, as well.
    Mr. Barletta. Thank you. Mr. Schied, as major expansions 
and improvements come online at some of the busiest border 
stations, is CBP able to keep pace, from an equipment and 
staffing standpoint? And how does CBP ensure the infrastructure 
we are building will actually be fully staffed and equipped?
    Mr. Schied. So thank you. So CBP is--we get the timeframe 
for these projects, we work within our appropriations process 
to make sure that the requisite number of staff get included in 
CBP's budget request. CBP's--Congress generously provided a 
couple of years ago 2,000 additional officers for CBP. We have 
had a certain challenge hiring those officers, but we are 
making substantial progress to hiring up to the congressional 
floor.
    And in the future, as these major projects come on, 
especially the types such as San Ysidro, we will work into our 
budget request the staffing so that we can keep those lanes 
open. Obviously, having the lanes open is critical to the 
effective use of that facility.
    Mr. Barletta. Thank you. Mr. Gelber, you highlight in your 
testimony the importance of alternative resources such as 
donations from non-Federal and private sources. But, as you 
point out, donations are not free. How does GSA evaluate the 
total cost of a real property donation to determine if it makes 
sense for the taxpayer?
    Mr. Gelber. We look at what the long-term costs would be to 
accept a donation. So when some entity is providing us either a 
facility or land, we look at what it would cost to operate and 
maintain that infrastructure. We work very closely with CBP to 
ensure that whatever staffing resources would be required are 
also factored in to the equation.
    So again, it is an evaluation of, potentially, the 10-, 20-
, 30-year costs of accepting what on the surface may be a free 
thing.
    Mr. Barletta. And this is for both Mr. Gelber and Mr. 
Schied.
    Language pending as part of the Border and Maritime 
Coordination Improvement Act makes clear the donations can only 
occur on a targeted, limited basis, limiting the total value of 
donations to $50 million. Because there are costs of 
maintaining and operating donations, P3s should not be viewed 
as a replacement to the Federal responsibilities.
    Can you talk about what you are doing to ensure there are 
proper limitations on the use of the donations?
    Mr. Gelber. I can start. Again, our primary concern is to 
ensure that while the entity--the thing that has been given to 
the Government is purported to be free, that the long-term 
costs of operating and maintaining that thing is, in fact, a 
manageable amount. And that is, it is suitable for the budget 
of the facility.
    There have been donation attempts where individuals or 
entities have wanted to donate a property to us that we would 
then have to lease, for instance, and that isn't a donation, it 
is just a long-term contractual arrangement that the Government 
would be entering into, and we are not interested in doing 
that.
    So again, the key issue for GSA is does the thing that is 
being given to the Government meet the needs of the Federal 
agencies that are going to use it? And, if that is the case, 
what are the long-term costs of that thing? And if those costs 
aren't appropriate, can't be budgeted for, then the GSA would 
not recommend accepting the donation.
    Mr. Schied. I think, from the CBP perspective, one of the 
critical elements that we look at is the operational utility of 
the potential donation. I think as you, Chairman, mentioned in 
your opening statement, the long-term cost of these facilities 
is going to be in operations and maintenance, and particularly 
the staffing. So something that might be free, if it expands 
our capacity beyond and we are having to rob Peter to pay Paul 
from an operational standpoint, then we have got to be careful 
about what it is that we accept.
    I think, as we go through these processes, you know, from 
our first round of donations, I think we saw--the ones that we 
accepted were relatively modest projects. I think a common 
theme of them is that they improved operational efficiency at 
the ports of entry, and I think that is exactly the kind of 
project or projects that we are looking for.
    Mr. Barletta. Thank you. I will recognize Ranking Member 
Carson.
    Mr. Carson. Thank you, Chairman.
    Mr. Schied, in your testimony you discuss how some land 
ports of entry were built over 70 years ago, and the ports of 
entry constructed as recently as 15 years ago are not able to 
accommodate the growing demands of additional processing 
capacity, new security requirements, or even enforcement 
technologies.
    Sir, have design requirements evolved in the last 15 years? 
And how are they being incorporated into ports of entry that 
GSA is constructing today?
    Mr. Schied. Certainly. So I would venture to say that 15 
years ago there was very little in terms of design standards 
for the ports of entry. I think that has been one of the 
successes between the relationship with CBP and DHS--or CBP and 
GSA, that in the past 10 years or so we have identified 
standards for ports of entry.
    From CBP's perspective, that is of interest because we like 
to have a certain degree of interchangeability in the 
facilities. Officers will move from facility to facility, even 
within a particular day. And so, having a certain 
standardization is helpful for us from that standpoint. 
Certainly for the projects that we own, we find that it is more 
economical to be able to build off of a particular standard, 
rather than essentially recreating each project from scratch.
    Mr. Carson. Mr. Gelber, there has been much discussion 
today about the pilot donation acceptance program. Does GSA 
envision this program growing in scope? And how many donations 
have actually been executed?
    And also, what are the lessons learned since this pilot 
commenced?
    Mr. Gelber. I think the key lesson learned--if I could 
answer the latter part of your question first--is the ongoing 
need which we have demonstrated for GSA and CBP to closely 
collaborate on reviewing these items. And we do that on a 
regular basis.
    For the fiscal year 2015 cycle, three donations were 
accepted over--I believe eight were submitted. Many more may 
have been cleared. The process is CBP reviews them first and 
then GSA and CBP review those that have made the initial 
screening together. Two are in the cities of Donna and Pharr, 
Texas, and there the provision is for additional inspection 
booths and some additional inspection lands. In El Paso, Texas, 
the provision is for a--to remove a traffic--two traffic 
medians that are currently obstructing traffic.
    So these are relatively modest changes to the facility, but 
they still need to be looked at to ensure that when that 
construction occurs, it is done in a fashion that is 
appropriate and doesn't create a problem for the Government in 
the long term.
    And so, we view the donation program as an opportunity to 
assist CBP meet its mission requirements at smaller stations. 
Larger infrastructure improvements are more challenging and 
require greater attention by the Government and, as such, 
haven't seen the large-scale donations that we have seen in the 
donation program.
    Mr. Carson. Thank you, gentlemen. Mr. Chairman, I yield 
back.
    Mr. Barletta. Thank you. The Chair recognizes Mr. Costello 
for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman. To both the 
gentlemen, depending on the proposed infrastructure project, 
the Department of State often times must also issue permits. 
And the question becomes what are you doing to ensure that 
proposals considered under the pilot program are in accord with 
the State Department's project, and how are you coordinating 
with the Department of State as it may be applicable on the 
front end to ensure that there are no delays to the project as 
a result of Department of State requirements somewhere along 
the line.
    And if you have experienced any delays along the line, do 
you have any recommendations in order to--how we might be able 
to get the Department of State to be a bit more accommodative, 
if that question may be applicable?
    Mr. Gelber. If I could start, the primary involvement of 
Department of State is the issuance of what is referred to as a 
Presidential permit, which authorizes the construction of a 
border station, a land port of entry.
    For an existing land port of entry, the State Department is 
not engaged, because the facility already exists and a 
Presidential permit has been provided. If there is no planned 
change to the nature of the border crossing, then the 
Department of State would not be engaged in the review of the 
donation. So when the State Department is engaged, it tends to 
be, again, for a larger project that has been subject of much 
discussion over numerous years because the creation of a new 
border crossing is a fairly involved process, involving two 
national governments, State and local governments, as well.
    So we have had--GSA's experience is a very productive 
relationship with the State Department when there is a need for 
the issuance of a Presidential permit, which would be when a 
new station is being created.
    Mr. Schied. I don't have much to add. Obviously, one of the 
important--more so, I think, than coordination with the 
Department of State, from an international standpoint, is with 
the counterparts in the foreign government, just to make sure 
that any changes to the American side of the infrastructure are 
in--generally, in concert with ongoing projects on either the 
Canadian or Mexican side.
    Mr. Costello. Thanks. I will yield back.
    Mr. Barletta. I want to thank both of you for your 
testimony today. Your comments have been helpful to today's 
discussion, and we will now move on to our second panel.
    [Pause.]
    Mr. Barletta. Thank you. On our second panel today we have 
Mr. Gary Gallegos, executive director, San Diego Association of 
Governments and also representing the Coalition for America's 
Gateways and Trade Corridors; and Mr. Sam Vale, chair of Public 
Policy Committee, Border Trade Alliance.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Barletta. Without objection, so ordered. Each of you is 
now recognized for 5 minutes.
    Mr. Gallegos, you may proceed.

   TESTIMONY OF GARY GALLEGOS, EXECUTIVE DIRECTOR, SAN DIEGO 
  ASSOCIATION OF GOVERNMENTS, AND BOARD MEMBER, COALITION FOR 
AMERICA'S GATEWAYS AND TRADE CORRIDORS; AND SAM F. VALE, CHAIR, 
         PUBLIC POLICY COMMITTEE, BORDER TRADE ALLIANCE

    Mr. Gallegos. Well, good morning and thank you, Chairman 
Barletta and Ranking Member Carson, for having us here this 
morning. And thank you for holding this hearing today to 
discuss the growing importance of utilizing innovative funding 
strategies to implement critically needed improvements along 
the United States border.
    Today's fiscal environment requires strategic investments 
in border infrastructure that, you know, maximize limited 
resources and incentivize what we would call leveraged 
partnerships. I appreciate the opportunity to testify today on 
the unique funding or financing approaches that we in San Diego 
are exploring to help provide the need to safely and 
efficiently move people across our border crossings with 
Mexico.
    Today I am not only representing the San Diego Association 
of Governments, but also representing the Coalition for 
America's Gateways and Trade Corridors. SANDAG serves as a 
forum for regional decisionmaking in San Diego County that 
incorporates all 18 cities and the county government along the 
U.S. border, where we have a combined population of a little 
over 5 million people. We are also the federally designated 
MPO, or metropolitan planning organization for the San Diego 
region.
    And in my capacity as executive director of SANDAG, I am 
proud to serve as a board member of the coalition, a diverse 
coalition of more than 60 public and private organizations 
dedicated to increasing Federal investment in America's 
multimodal freight infrastructure. The coalition works to bring 
national attention to the needs of the U.S. multimodal system 
and to educate Members of Congress and the public on the need 
to develop consensus for Federal investment policy that 
supports intermodal connectors, trade corridors, freight 
facilities, and gateway access.
    I would like to ask if we could advance a couple of slides 
to give the committee some perspective on the region context.
    [Slide]
    Mr. Gallegos. We could go to the next one, please. Click 
through all of those.
    [Slide]
    Mr. Gallegos. What this tries to do is show that, on the 
California and Mexico border today, we have seven border 
crossings. Four of those are in San Diego. As was highlighted 
in the earlier panel, San Ysidro is known as the busiest 
international border crossing in the Western Hemisphere, 
literally millions of pedestrians and vehicles cross each year. 
Otay Mesa is our major commercial gateway for international 
trade between California and Mexico, and it serves over 800,000 
trucks annually.
    Land border crossings like these are facing rising 
passenger and commercial traffic levels and congestion, as a 
result of increased international trade and levels of personal 
travel. Border crossings are a source of our economic mobility 
for our region, as well as the Nation. People and goods 
traverse our vibrant binational region daily.
    However, due to the current 1- to 3-hour border wait times 
that occur daily, this represents lost economic opportunities 
and impacts our economy in a negative way. As a result, in 2005 
SANDAG launched an initiative to innovatively plan and finance 
a state-of-the-art border crossing which we will refer to as 
Otay Mesa East.
    Can you go to the next slide?
    [Slide]
    Mr. Gallegos. So, recognizing limited Federal resources 
available to implement new border crossings, it was determined 
that a new approach to financing border infrastructure 
improvements was needed. SANDAG has partnered with the 
California Department of Transportation, also known as 
Caltrans, in trying to develop this new border facility.
    In order to facilitate this new financing approach, State 
legislation was passed that authorizes SANDAG to issue bonds 
for acquisition, construction, completion of transportation 
facilities, and to impose tolls and user fees for the use of 
the State route that would lead to the new border crossing.
    Under this strategy, the region will capitalize on its 
experience and strength with tolling. SANDAG has been involved 
in variable tolling on Interstate 15 since 1996. We believe a 
variable tolling approach will not only serve as a source for 
new revenue for new border crossings, but will also serve as a 
mechanism for managing demand, which we think is important.
    By utilizing SANDAG's financial authorities, we will be 
able to maximize public investment in the port of entry by 
utilizing toll revenues and then hopefully being able to 
leverage those with State, Federal, and local dollars. This 
would permit us to develop a new port of entry faster than 
following traditional funding processes.
    Based on estimates, coupled with increased capacity and 
higher levels of service, we estimate that this new port of 
entry would generate a little over $4 billion over a 40-year 
period. This toll revenue would allow SANDAG to underwrite 
about $650 million worth in bonds that could be used to pay for 
the new facility.
    This vision for the 21st-century border will decrease 
dependency on Federal dollars by focusing on new partnerships 
that help leverage the Federal dollars, establish a 
transportation demand tool that will help improve the 
efficiency of our border crossings, implement a border wait 
time detection system that would allow for a statewide--or a 
systemwide approach, and to managing traffic congestion at the 
border, something that doesn't happen today. And it would also 
allow for improving roads on both sides of the border that make 
our system more efficient.
    We believe that this new border crossing will provide much-
needed traffic relief and serve as an economic engine for our 
region and the State.
    Go the next slide.
    [Slide]
    Mr. Gallegos. So I wanted to use this slide to illustrate 
some of the progress we have made today. We have managed to 
leverage about $150 million of State and local dollars with 
about $286 million in Federal dollars. And what you see there 
in magenta, that first section has recently been completed and 
is now open to traffic. And the sections in blue and brown are 
the ones we are working on, and we hope to have those at least 
to sign and ready to go to construction by 2018, at the 
earliest.
    You can go to the last slide.
    [Slide]
    Mr. Gallegos. And so, let me close by saying that SANDAG, 
as well as the Coalition for America's Gateways and Trade 
Corridors, are delighted to have this opportunity to address 
critical border issues of border station construction and look 
for ways to maximize and leverage dollars.
    And I also want to take this opportunity to thank the 
Members of Congress for the last transportation bill. For the 
first time it starts really addressing dollars for freight, and 
helps us hopefully maintain the competitive edge that I think 
this country has globally.
    So with that, Mr. Chairman, I want to thank you, and I 
would be pleased to answer any questions you may have.
    Mr. Barletta. Thank you for your testimony.
    Mr. Vale, you may proceed.
    Mr. Vale. Chairman Barletta and Ranking Member Carson and 
members of the subcommittee, my name is Sam Vale, and I am 
testifying on behalf of the Border Trade Alliance. We also are 
part of the South Texas Assets Consortium, which is a 
participant in the 559 Program, and we do operate a small, 
private port of entry. For 30 years the BTA has been providing 
analysis and advocacy for a U.S.--Canada and U.S.-Mexico border 
issues.
    We will start with a fact: Adequate infrastructure produces 
less congestion and more efficient cross-border trade, as well 
as generates taxable income. Staffing of the inspection 
agencies has admittedly been deficient, primarily because of 
challenges on the hiring processes. And we understand that they 
are looking for solutions to get this taken care of in the 
future.
    The average age of the border station is around 40 years, 
but the commercial truck inspection stations and infrastructure 
are woefully inadequate, and we need to start focusing on that. 
That is an important part of job creation within the United 
States.
    For example, we have done a $250 million upgrade at the 
Mariposa Port of Entry in Arizona for fruits and vegetable 
imports, but yet today there is not enough staffing to keep all 
the new lanes operational all the times that they should be. 
This project was completed in 2014, and we are--still haven't 
got the staffing.
    In south Texas we are growing dramatically in manufacturing 
and produce. And all of this could have been predicted 10 years 
ago if we had looked at the infrastructure being built in 
Mexico.
    We are--our recommendation is that, with future border 
station construction, that when it is being planned, that the 
committee also needs to work with your colleagues in the 
committees that have oversight over CBP staffing, Federal and 
State highways, and truck inspections, because you all got to 
be on the same page, because it doesn't come to fruition until 
you get there.
    The section 560 and 59, it is a viable, creative option to 
assist the Government in some of its expenses. The donation 
acceptance program is great, but there is two ideas that must 
drive them. One is flexibility and the other is return on 
investment. Flexibility is a must, particularly in the design 
processes that is going through.
    The agencies must demonstrate a willingness to explore new 
ideas that are different than what they are used to seeing. To 
be blunt, return on investment--real estate investors and the 
international trade communities are not charities. They are 
looking for something in return. The Government should be 
prepared to demonstrate the financial upside for private and 
local public sector participation.
    CBP appears to be responding to flexibility in the small-
scale donation acceptance program, but they have recently 
announced they are even promising 60 to 70 percent improved 
processing times in the applications.
    Not all border ports of entry need major infrastructure 
overhauls or dramatic staffing upgrades. The BTA supports pilot 
projects that have taken place in various parts of the country, 
and we support the pre-clearance of the Buffalo-bound cargo, 
where the inspection takes place on the Canadian side of the 
border and then comes to the U.S. We also support pre-clearance 
on the Mexican border with the United States. Laredo, Texas, 
has a pilot there. Otay Mesa, California, has pilots going. And 
there is even one in an electronics plant in Juarez, Mexico.
    However, on the other hand, we need to avoid infrastructure 
agreements with States and foreign governments that lead to 
ongoing financial commitments. The BTA acknowledges that there 
is a significant debate over how to construct a new span across 
the Detroit River connecting Detroit in Michigan and Windsor, 
Ontario. We are not going to get into the details, because that 
is another group of issues, but we do have deep concerns over 
any agreement between governments to construct new bridge ports 
of entry requiring ongoing staffing commitments from CBP and 
other agencies without deliberation and appropriations from the 
Congress. Should not be done.
    The 559 programs have benefitted on the southern border, 
because we are living up to our diplomatic notes, primarily 
using donated acceptance program funds. McAllen, Texas, donated 
the land for the port. Then they later have donated land in 
Mexico and helped build a road in Mexico. They built lanes on 
the U.S. side. Now they are building--they are going to be 
building a border station for truck inspection on the U.S. side 
on land that they had already donated.
    So, there are a lot of opportunities. That is a great 
example of how you do the right thing. But we need to 
understand that this is--it is--in a perfect world, the 
Government should be able to finance all of these activities, 
and we don't have that perfect world today.
    But today we do have an option. We can either choose to go 
forward with something that would be innovative and creative, 
or not. But we have a choice before we just lost 
competitiveness and tax dollars. So we are very happy to be 
part of that support group.
    There is a role for the public and private sector--local 
public and private sector and the donation acceptance programs. 
Investors have to have confidence. We think you have to look 
real seriously at the large projects, because you are not going 
to get funding on some of these projects, and you can project 
it 30 years, but that could easily be a 50-year if you are 
talking about certain stretches of highways and access to how 
you have to function, because the border station is no good if 
it doesn't--it is like a bridge halfway there if you don't have 
all the ingress and egress routes put into what needs to be 
done.
    The Border Trade Alliance appreciates the opportunity to 
testify. We look forward to finding solutions to our border 
challenges. I will answer any questions you may find.
    Mr. Barletta. Thank you for your testimony. I will now 
begin the first round of questions limited to 5 minutes for 
each Member. If there are additional questions following the 
first round we will have additional rounds, as needed. I will 
start.
    Mr. Gallegos, the committee has authorized a three-phase 
project at San Ysidro port of entry. How will these 
improvements, when fully implemented, help address the capacity 
issues at that border station?
    I went down, actually, to see the station. So how will it 
address that?
    Mr. Gallegos. So I think first we should acknowledge the 
world's busiest border crossing. And so, the fact that they 
have, you know, double-staffed the booths should allow us to 
get, hopefully, more throughput production out of the new 
border crossing. And I think the steps that are taking--that 
are still to come in phase 3 and--because the last panel 
highlighted phase 3 became sort of phase 2, and phase 2 became 
sort of phase 3.
    But the one thing that needs to be done and done as soon as 
possible in the next two phases is to improve the pedestrian 
experience. We have pedestrians who are taking several hours 
and cross and facilities that are less than adequate to handle 
the pedestrian movement. But we are optimistic that when phase 
2 and 3 come, that all that is going to improve.
    We should also highlight, Mr. Chairman, for the committee 
that we have worked closely in partnership with GSA and CBP to 
bring local dollars forward to also make key transit 
connections in a key intermodal center that will allow the 
local transportation system to integrate with the Federal 
investment that is being made. And that is something that I 
think we got to work harder at doing better in the future, that 
we, you know, not only look at the border crossing itself, but 
what are the connections that are necessary to make them work 
on both sides of the borders, both on the Mexican and the U.S. 
border.
    Mr. Barletta. Yes, thank you.
    Mr. Vale, as you point out in your testimony, even if we 
build the needed infrastructure, without the ability of CBP to 
staff and equipment for the facility, we are not going to see 
much improvement.
    How critical is it that solutions to staffing and equipment 
be identified as GSA and CBP evaluate their priorities for 
infrastructure needs?
    Mr. Vale. It is absolutely vital. That is like--it is like 
two parts of the same machine. You can't--it doesn't work one 
without the other.
    The facilities can--are expensive to build. They are 
expensive to maintain. And if you are not using them, you are 
not getting your return on investment as a government. You are 
not getting your tax dollars. And we really focus right now a 
lot on the commercial traffic, because we are being overwhelmed 
on the southern border. The Canadian border is down 25 percent 
and we are up 25 percent and it is growing.
    And it is not that people are not crossing in one place or 
another, it is that the pie is getting bigger, and there is 
more and more manufacturing going on in Mexico using U.S. parts 
to do the manufacturing than ever before. And it is growing. 
They have been--in one part of Mexico they call them the Bajio 
Central States. They have had $16.5 billion of foreign 
investment in the past 3 years, with another 16.5 projected for 
the next 3 years. This is all foreign money going in there to 
utilize qualified workforce, costs that are--and the market is 
the United States of America.
    Mr. Barletta. Mr. Vale, you offer some important 
suggestions and notes of caution in your testimony when it 
comes to private donations. You suggest the more nimble and 
focused approach for the P3 program, and caution us about 
ongoing financial commitments that may not be apparent in 
donated property.
    How do you think the process can be more streamlined in 
evaluating potential P3s?
    Mr. Vale. Well, one of the things you have to do is have a 
more accurate predictability of the growth cycles. Now, we have 
been visiting with some major manufacturings lately, and they 
said under the right circumstances they could make data maybe 
through this--southern California creates--make it available to 
have it sanitized, because these would be confidential business 
plans. But these business plans, up to 3 years, are 85 percent 
accurate in what they are projecting.
    If we can get that information into the work staffing model 
for CBP that will also share it with the GSA of what they are 
going--facilities, that is the innovative-type processes we 
need to go through, instead of taking a historical look at it, 
and linear projections forward. Those are part of the puzzle, 
but they are not the best solution. It is to know what business 
is planning in produce. Who drives produce? The American 
consumer. Who knows them best? The big box buyers, not the 
farmer, not the trucker, but the guy who sells it to the 
public. We need to get them in the picture.
    Mr. Barletta. Thank you. And I recognize Ranking Member 
Carson.
    Mr. Carson. Thank you, Chairman.
    Mr. Vale, there has been a lot of discussion today about 
how land ports of entry are basically outdated due to an 
increase in trade, post-NAFTA and subsequent investments in 
infrastructure by the Mexican Government. Who is responsible 
for tracking the infrastructure investments made by either the 
Canadian and Mexican Governments? And do you believe it is even 
feasible to coordinate those activities between countries to 
ensure that land ports of entry are not overwhelmed, due to 
mismatched investments along the border?
    Mr. Vale. I don't know if the governments do a good job of 
it, because they many times have overarching--what they think 
of are more important and sexier items to deal with. But the 
bottom line is that business does, because the business 
investor has to have a return.
    We think that if you would have looked in Mexico, for 
example, you saw them constructing these highways. You saw them 
cross--they built two transcontinental roadways connecting to 
the border. They also built the highest--and these are not 
overnight projects--they built the highest suspension bridge in 
the world. That changes flows and patterns. The dollar and the 
investment climate in the world changes it.
    Somebody needs to be looking at it. I know business is 
looking at it. We look every day at it. We are working on--2 
years ago we were looking at Mexico as an exporter of oil and 
hydrocarbons. Guess what? Today they are only producing 50 
percent of their hydrocarbon needs. Who is going to be selling 
it to them? Who has already started doing that? The United 
States.
    Mr. Carson. Yes.
    Mr. Vale. We are--in the smallest port in the country, we 
are now export oil tankers into--Mexican tankers going across 
the bridge into Mexico to deliver to their consumers.
    Mr. Carson. To that point, also in your testimony, Mr. 
Vale, you indicated that the CBP should be able to demonstrate 
the financial upside for a private-sector donation to the land 
ports of entry program.
    In your mind, what is the appropriate metric or even order 
of magnitude that the CBP should be targeting to even make a 
private-sector donation attractive?
    Mr. Vale. Well, it is maybe a little easier if you are 
talking to a local public sector entity, a city or a county or 
a State government, because they have interests for their 
taxpayers.
    But even private business would like to know that there is 
going to be a receptive attitude to what they are trying to do, 
that they are not trying to force is down somebody's throat. It 
is going to have to meet all the security requirements, 
whatever is needed there, but there has to be understood that 
this is something good for all the parties. And sometimes you 
don't get that reception, it is more like pulling teeth.
    Mr. Carson. Yes. Lastly, Mr. Gallegos, what roles do you 
believe that the local and State governments should have in 
developing infrastructure plans for land ports of entry? And 
how can local and State governments augment Federal efforts to 
expand capacity at land ports of entry?
    Mr. Gallegos. Well, first of all, thank you for the 
question. And I think the innovative approaches that we are 
proposing is one way to do that. But another, I think, key 
component for us has been the development of border master 
plans. And in many ways, they are similar to general plans that 
cities have, so that if you understand how lands proposing to 
be zoned to be used on both sides of the border, both on the 
Mexican side and the U.S. side, that those land use plans then 
become the drivers for, you know, the businesses, the 
investment, the growth that is going to happen in those 
borders.
    And so, I think local governments working with the State, 
working with the Federal Government on both sides of the 
border, can develop these master plans as a planning tool to 
allow governments at all three levels on our side of the border 
and governments on the Mexican side of the border to do a 
better job of planning and forecasting what our needs are going 
to be in the future. And I think these border master plans are 
a fairly new phenomena. We haven't been doing them for a long 
time.
    Mr. Carson. Mr. Chairman, I yield back.
    Thank you, gentlemen.
    Mr. Barletta. Thank you.
    Mr. Vale, you expressed deep concerns about the proposed 
new bridge and border crossing in Detroit going forward without 
congressional appropriations. I also have concerns. And the 
House limited the donation program. To be clear, it cannot be 
used for this project.
    This crossing and bridge is estimated to cost several 
billion dollars and require 100 or more CBP staff. Where will 
they come from? And how could this impact other crossings on 
the northern and southern border?
    Mr. Vale. The thing that jumped out at us was a $100 
million commitment for year one and $50 million every year 
thereafter for staffing alone. Good grief, we have to beg, 
borrow, and steal to get a guy to work, and every guy that we 
get to work on the southern border produces tremendous amount 
of economic benefit.
    Why would you be doing that on a border that, right now, by 
their own admission, is decreasing its exports to the United 
States, or our imports are decreasing, which means you need 
less staffing and better utilization of the existing staffing?
    Sometimes we forget that we have to look at international 
bridge ports as a system, and not this community versus that 
community. And the number of lanes that are out there may be 
built, but if they are underutilized we are wasting 
infrastructure.
    And oh, by the way, there is not a bridge on the border 
congested 24 hours a day.
    Mr. Barletta. Well, I want to thank you both for your 
testimony today. Your comments have been helpful in our 
discussion. If there are no further questions, I would ask 
unanimous consent that the record of today's hearing remain 
open until such times as our witnesses have provided answers to 
any questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    [No response.]
    Mr. Barletta. Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today. If no other Members have anything to add, this 
subcommittee stands adjourned.
    [Whereupon, at 10:52 a.m., the subcommittee was adjourned.]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
   
                                    
                           [all]
                           
                           
                           
                           
</pre></body></html>
